<html>
<title> - [H.A.S.C. No. 111-70] NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2010 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED  ELEVENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                         [H.A.S.C. No. 111-70] 

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT 

                          FOR FISCAL YEAR 2010

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                MILITARY PERSONNEL SUBCOMMITTEE HEARING

                                   ON

             BUDGET REQUEST ON MILITARY PERSONNEL OVERVIEW

                               __________

                              HEARING HELD

                              MAY 21, 2009

                                     
                  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     
                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

51-108 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


























                    MILITARY PERSONNEL SUBCOMMITTEE

                 SUSAN A. DAVIS, California, Chairwoman
VIC SNYDER, Arkansas                 JOE WILSON, South Carolina
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MADELEINE Z. BORDALLO, Guam          JOHN KLINE, Minnesota
PATRICK J. MURPHY, Pennsylvania      THOMAS J. ROONEY, Florida
HANK JOHNSON, Georgia                MARY FALLIN, Oklahoma
CAROL SHEA-PORTER, New Hampshire     JOHN C. FLEMING, Louisiana
DAVID LOEBSACK, Iowa
NIKI TSONGAS, Massachusetts
               Michael Higgins, Professional Staff Member
                 John Chapla, Professional Staff Member
                     Rosellen Kim, Staff Assistant






















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, May 21, 2009, Fiscal Year 2010 National Defense 
  Authorization Act--Budget Request on Military Personnel 
  Overview.......................................................     1

Appendix:

Thursday, May 21, 2009...........................................    33
                              ----------                              

                         THURSDAY, MAY 21, 2009
FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
                      MILITARY PERSONNEL OVERVIEW
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, 
  Chairwoman, Military Personnel Subcommittee....................     1
Wilson, Hon. Joe, a Representative from South Carolina, Ranking 
  Member, Military Personnel Subcommittee........................     2

                               WITNESSES

Coleman, Lt. Gen. Ronald S., USMC, Deputy Commandant for Manpower 
  and Reserve Affairs, Headquarters, U.S. Marine Corps...........     7
Ferguson, Vice Adm. Mark E., III, USN, Chief of Naval Personnel, 
  Deputy Chief of Naval Operations, Total Force..................     6
McGinn, Gail H., Acting Under Secretary of Defense, Personnel and 
  Readiness, Department of Defense...............................     3
Newton, Lt. Gen. Richard Y., III, USAF, Deputy Chief of Staff, 
  Manpower and Personnel, Headquarters, U.S. Air Force...........     8
Rochelle, Lt. Gen. Michael D., USA, Deputy Chief of Staff, G-1, 
  Headquarters, U.S. Army........................................     4

                                APPENDIX

Prepared Statements:

    Coleman, Lt. Gen. Ronald S...................................   117
    Davis, Hon. Susan A..........................................    37
    Ferguson, Vice Adm. Mark E., III.............................   105
    McGinn, Gail H...............................................    39
    Newton, Lt. Gen. Richard Y., III.............................   147
    Rochelle, Lt. Gen. Michael D.................................    91
    Wilson, Hon. Joe.............................................    38

Documents Submitted for the Record:

    [There were no Documents submitted.]
Witness Responses to Questions Asked During the Hearing:

    Ms. Bordallo.................................................   161
    Dr. Fleming..................................................   161

Questions Submitted by Members Post Hearing:

    Mr. Loebsack.................................................   165
FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
                      MILITARY PERSONNEL OVERVIEW

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                           Military Personnel Subcommittee,
                            Washington, DC, Thursday, May 21, 2009.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2212, Rayburn House Office Building, Hon. Susan A. Davis 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
    CALIFORNIA, CHAIRWOMAN, MILITARY PERSONNEL SUBCOMMITTEE

    Mrs. Davis. Good afternoon. The meeting will come to order.
    We are happy to have everybody here. Today, the 
subcommittee will hear testimony on the fiscal year 2010 
national defense budget request for military personnel.
    Each of your written statements makes clear the heartfelt 
commitment by the Department of Defense (DOD) and the services 
to protect and enhance the programs that support service 
members and their families. You can be sure that the 
subcommittee shares your view that the men and women who serve 
our Nation in uniform are deserving of the highest praise and 
our best efforts to protect the programs that are the 
foundation for their quality of life.
    I was pleased to observe that Admiral Mullen, the chairman 
of the Joint Chiefs of Staff, feels as strongly as we do that 
personnel programs must be protected. In a speech at The 
Brookings Institution on Monday this week, the admiral 
indicated that tighter budgets will put increasing pressure on 
leaders to reduce programs that sustain people and that those 
leaders, including him, needed to resist the temptation to make 
those cuts.
    The admiral did note that health care and other personnel-
related costs were growing and that more needed to be done to 
control such costs because the rate of growth associated with 
personnel programs was not sustainable over time.
    We have all felt the budget pressures increasing in recent 
years. For example, the ongoing cuts to recruiting and 
retention are understandable, so long as the military continues 
to attract and retain quality people. However, the cuts must be 
structured so as not to preclude our ability to respond when 
the economy begins to recover.
    Other less prominent indicators of budget pressures are 
more troubling. For example, the Navy's freeze of permanent 
changes of station (PCS) for the remainder of the year is 
causing hardship for many of our families. There are rumors of 
funding cuts to programs such as the Army Knowledge Online that 
is so important to communication within the Army and the 
Virtual Army Experience, that is important to understanding the 
recruiting of a new high-tech generation.
    We now know that the Marine Corps Reserve will, for the 
third consecutive year, not achieve its authorized end-strength 
during fiscal year 2009. And the Air Force, the one service 
most reliant on retention, continues to struggle to achieve 
certain goals.
    Our purpose today is to better understand how those budget 
pressures will be translated to fiscal year 2010 and how those 
pressures will impact end-strength; recruiting and retention; 
force structure; compensation; and service member, retiree, and 
family morale and welfare.
    Once again, thank you all for being here. We look forward 
to your testimony.
    And I want to turn to Mr. Wilson for his opening remarks.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 37.]

   STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM SOUTH 
   CAROLINA, RANKING MEMBER, MILITARY PERSONNEL SUBCOMMITTEE

    Mr. Wilson. Thank you, Chairwoman Davis.
    In many respects, the military personnel systems today 
reflect a degree of success that would have been questionable 
three to five years ago. In large part, that success is due to 
the efforts of the witnesses who will testify today.
    I want to particularly single out Lieutenant General 
Michael D. Rochelle, the Army G-1, and Lieutenant General 
Ronald S. Coleman, the Marine Corps deputy commandant for 
Manpower and Reserve Affairs. This likely will be their last 
appearance before this subcommittee. Each will complete more 
than 30 years of exceptional service before retiring. Both men 
are directly responsible for successfully directing the 
personnel programs of their respective services through an 
extraordinarily difficult period.
    I personally want to thank you for your service to this 
Nation and wish you both well in our future endeavors. And I 
particularly know of your success, having the privilege of 
representing Fort Jackson, representing Parris Island, the 
Marine Corps Air Station in Beaufort and Naval Hospital at 
Beaufort. So thank you both for your service.
    With regard to the fiscal year 2010 military personnel 
budget request, I have three areas of concern.
    The first is the $800 million reduction in the services' 
recruiting and retention budgets. While I know that the 
downturn in the economy has made recruiting and retention 
somewhat easier, the experience of this subcommittee is that 
reductions in recruiting and retention funding inevitably prove 
to be too deep. So I am interested in hearing the personal 
assessment of each of the service personnel chiefs as to where 
risk exists in the proposed cuts to recruiting and retention 
resources.
    My second concern focuses on the number of nondeployable 
personnel in the Army, Army National Guard, and Army Reserve. 
Clearly, the fact that there are at least 27,000 nondeployable 
personnel in the active Army and at least another 21,000 
nondeployables in the Army National Guard and Army Reserve must 
have a range of effects on these components. I would like to 
hear more about those impacts and how the Army believes they 
might be mitigated.
    The third area of concern relates to the recent testimony 
by the service chiefs, particularly those of the Marine Corps 
and Army, that dwell time will not significantly increase in 
the foreseeable future. I would like to understand why, with 
increased end-strength, there will not be a significant change 
in the dwell time for the active and Reserve components.
    Madam Chairwoman, thank you for holding this hearing, and I 
look forward to the testimony of our witnesses.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 38.]
    Mrs. Davis. Thank you, Mr. Wilson.
    I now want to introduce our first panel.
    Ms. Gail McGinn, Acting Under Secretary of Defense for 
Personnel and Readiness, Department of Defense.
    Thank you very much. Welcome back to the hearing. And I had 
an opportunity to see you this morning, as well, and talking 
about balloting for our military personnel overseas, and I 
appreciate your doing that, as well.
    Lieutenant General Michael D. Rochelle, Deputy Chief of 
Staff, G-1, Headquarters U.S. Army.
    And, General Rochelle, we had an opportunity to meet 
earlier, and I wanted to wish you the very best as you retire 
this summer. This probably is your final appearance before this 
subcommittee, and we wish you well. We thank you so much for 
all of your dedicated service. Thank you very much.
    Vice Admiral Mark Ferguson III, Chief of Naval Personnel, 
Deputy Chief of Naval Operations of Total Force.
    Thank you very much for being here, Admiral.
    Lieutenant General Ronald S. Coleman, Deputy Commandant for 
Manpower and Reserve Affairs, Headquarters, U.S. Marine Corps.
    And, General Coleman, we know that you also will be 
retiring this summer, and this is probably your final 
appearance as well. And, again, I thank you for your dedicated 
service. Thank you very much.
    And Lieutenant General Richard Newton III, of the U.S. Air 
Force, Deputy Chief of Staff, Manpower and Personnel, 
Headquarters, U.S. Air Force.
    Thank you for being here.
    Please, we will start with Ms. McGinn.

STATEMENT OF GAIL H. MCGINN, ACTING UNDER SECRETARY OF DEFENSE, 
         PERSONNEL AND READINESS, DEPARTMENT OF DEFENSE

    Ms. McGinn. Thank you.
    Chairwoman Davis, Representative Wilson, and distinguished 
members of the committee, thank you for the opportunity to 
testify before you on the overview of the Department's 
programs, policies, and budget dedicated to taking care of our 
most precious resource, our people.
    As our data shows, we are largely succeeding in attracting 
and retaining the best and brightest young people. The 
Department of Defense has set high standards for the quality 
for the All-Volunteer Force, and the payoff is evident in the 
performance of this force in the field, which has been truly 
remarkable.
    It is vital to our national defense to maintain this highly 
skilled and motivated force. We must continue to ensure that we 
provide the right combination of pay, benefits, and 
compensation. We want to continue to work with you to ensure 
that we make the best use of every dollar authorized.
    We are still sending our service members in harm's way and 
to face serious conflicts abroad. And for those service members 
who have returned from these operations wounded and injured, 
the Department is committed to doing everything we can to make 
sure they receive all the necessary medical care and nonmedical 
assistance to return to full-duty status or successfully 
transition to the next phase of their lives.
    We are grateful to you for your giving us the authority and 
resources to make significant progress in restructuring the 
disability and compensation systems, enhancing case management, 
and hiring additional recovery care coordinators.
    However, we know that the work is not done. And this budget 
is a testament to the fact that the Department will continue to 
devote our energy and resources to our wounded, ill, and 
injured.
    Furthermore, we understand the sacrifices made by not just 
the service members but their families. These brave men and 
women cannot do what they do without the support of their loved 
ones. And to enforce the ongoing support of these family 
members, the Department increased the fiscal year 2010 baseline 
for family assistance by shifting funds from the overseas 
contingency operations budget to the baseline to ensure 
continuity in program delivery. This is a step in the right 
direction.
    I do have a statement I submitted for the record. And I 
would just like to thank you for the opportunity to discuss 
these important issues with you today, and I look forward to 
your questions.
    [The prepared statement of Ms. McGinn can be found in the 
Appendix on page 39.]
    Mrs. Davis. Thank you very much. Appreciate it.
    General Rochelle.

STATEMENT OF LT. GEN. MICHAEL D. ROCHELLE, USA, DEPUTY CHIEF OF 
              STAFF, G-1, HEADQUARTERS, U.S. ARMY

    General Rochelle. Chairwoman Davis, Ranking Member Wilson, 
distinguished members of the committee, thank you for the 
opportunity to appear before you today.
    I appear before you on behalf of the 1.1 million men and 
women serving here and abroad, in peace as well as the most 
violent environments. This combat-seasoned force is resilient 
and professional, yet it is strained. More than 1 million of 
this Nation's finest citizens have deployed over the past 7 
years into harm's way. We realize very well that are costs and 
effects associated with this conflict, both visible and 
invisible effects.
    Our current programs to relieve stress on the force are 
vital to maintaining a healthy, balanced, and prepared Army. 
These programs help us defend our Nation against some of the 
most persistent and wide-ranging threats in our Nation's 
history.
    The success of these programs are due in part--in large 
part, I might add--to the support of the Congress and 
specifically this committee. This committee has give us 
numerous programs that we have instituted to keep America's 
Army strong well into seven-plus years of war.
    First and foremost, you have given us the means to recruit 
and retain an agile Army and, I might add, the best trained, 
the best led, and the best equipped Army in the world. As a 
result, for the past two years, we have met or exceeded our 
recruiting and retention goals for the total Army. This is a 
step in the right direction to get our personnel, our people, 
back in balance.
    We continue to transform our force into one Army that 
consistently use the talents of our active, Reserve, and 
National Guard soldiers, as well as our magnificent teammates, 
our civilian workforce. This total force approach is key to 
restoring balance within our ranks and in our homes.
    This Congress has embraced our needs, and we are very, very 
grateful. You have given us the means to improve the quality of 
life for our soldiers and their families. Soldiers are 
remaining in the Army because they see it is a good environment 
in which to serve and raise a family, thus making us the 
employer of choice.
    The Army continues to face challenges which will be 
directly in front of us for the next several years. Armed with 
lessons learned, it is our intent to stay in front of those 
challenges, anticipate them, develop strategies and programs, 
and keep them from becoming problems in the future.
    One of our largest challenges is the eligible population to 
serve in our Armed Forces today. That number continues to drop, 
thus creating what I believe is a national dilemma, a national 
problem. The Army will continue to work hard to attract and 
retain the best, but we need your help in taking on this larger 
issue, this larger problem.
    The challenging environments that our soldiers serve in 
demand that we maintain the standards as set. And we must 
remain ever vigilant that our force is manned with both 
physically and mentally fit and qualified soldiers, as it is 
today.
    I have described the challenging environment to you here 
today. I am confident, however, that with the operational and 
institutional agility America's Army has developed over the 
past eight years, we will meet all the challenges that will 
come our way.
    It is easier to commit to a plan of action when we know 
that the Congress supports us. Your leadership and support have 
been unwavering. I have appreciated the discussions we have had 
over the years concerning the health of this great Army, and I 
look forward to taking your questions today.
    Thank you for your support.
    [The prepared statement of General Rochelle can be found in 
the Appendix on page 91.]
    Mrs. Davis. Thank you.
    Admiral Ferguson.

  STATEMENT OF VICE ADM. MARK E. FERGUSON III, USN, CHIEF OF 
 NAVAL PERSONNEL, DEPUTY CHIEF OF NAVAL OPERATIONS, TOTAL FORCE

    Admiral Ferguson. Chairwoman Davis, Representative Wilson, 
and distinguished members of the committee, thank you for the 
opportunity to appear before you to review our budget request 
on behalf of the Navy total force and their families.
    During my previous testimony in March, I discussed end-
strength and our successes in recruiting and retention. Since 
that time, recruiting and retention have remained strong, and 
we continue to achieve our enlisted and officer goals across 
both the active and Reserve components.
    Our fiscal 2010 active and reserve budget request supports 
our ability to attract, recruit, and retain a highly skilled 
naval force in support of our maritime strategy. I would like 
to briefly highlight the principal themes contained in our 
budget request.
    First, it includes an increase of our authorized end-
strength to a level of 328,800. It sustains the Reserve force 
at an end-strength of 65,500. This increased end-strength above 
our 2009 level supports the demand for individual augmentees 
for the joint force and demonstrates our commitment to 
sustaining our current deployment dwell times to minimize 
stress on the force.
    Our request sustains the recruiting successes we achieved 
last fiscal year, where we met medical goals for the first time 
in five years, and this year we met nuclear Zone A retention 
goals for the first time in over 30 years.
    While the budget reflects a slight decrease in advertising 
expenditure, it increases the amount for enlistment bonuses and 
sustains our recruiting force in the field at their current 
levels to support our projected accessions.
    The budget request also supports our stabilization strategy 
to balance the force in terms of seniority, experience, and 
skills, while safeguarding the careers of our top performers. 
We have adjusted incentives and bonuses in response to sailor 
behavior, and this request sustains our enlistment bonus 
programs at 2009 levels.
    The budget request also includes increases for selected 
medical recruiting programs. Your support for these programs is 
essential as we continue to target our investment in critical 
skill areas. And, I might add, your support has been critical 
to our successes in the past.
    The budget request also increases funding for family 
support programs and our Navy Safe Harbor, wounded, ill, and 
injured, program. It also supports our efforts to build 
resiliency and foster a culture that encourages sailors to seek 
help in response to stress.
    Finally, our request balances our education and training 
requirements with growth in important mission areas, such as 
cyber warfare, language and culture.
    Last week, I had the opportunity to visit our naval 
personnel overseas in Europe and the Middle East. Your sailors 
today are positive, enthusiastic, and performing 
extraordinarily well in meeting the demands of the joint force 
and of the Nation. I could not be prouder of their efforts that 
they do every day in service to the country.
    And so, on behalf of all the men and women in uniform who 
sacrifice daily and their families, I wish to express my 
sincere appreciation to the committee and the Congress for your 
unwavering support for our Navy.
    Thank you, and I look forward to your questions.
    [The prepared statement of Admiral Ferguson can be found in 
the Appendix on page 105.]
    Mrs. Davis. Thank you.
    General Coleman.

     STATEMENT OF LT. GEN. RONALD S. COLEMAN, USMC, DEPUTY 
COMMANDANT FOR MANPOWER AND RESERVE AFFAIRS, HEADQUARTERS, U.S. 
                          MARINE CORPS

    General Coleman. Chairwoman Davis, Congressman Wilson, 
distinguished members of the subcommittee, it is my privilege 
to appear before you today to discuss Marine Corps personnel.
    I would like to thank both the Chairwoman Davis and 
Congressman Wilson for their kind words. It is an honor to 
serve this greater Nation of ours.
    I would like to make a few key points.
    First, with regard to our end-strength, the Marine Corps is 
now building on our success in fiscal year 2008 and will reach 
our 2010 goals this fiscal year, two years ahead of schedule. 
We owe this success in large part to our recruiters, who 
continue to meet all accession goals while maintaining the 
highest-quality standards. Thank you for your continued support 
of our enlistment incentives which help make this achievement 
possible.
    Secondly, our active-duty component retention continues to 
be successful. In fiscal year 2008, first-term retention was 36 
percent. We are building on that success in fiscal year 2009, 
having already achieved our fiscal year mission. We thank you 
for your support of our Selective Reenlistment Bonus Program. 
It will remain the foundation of our retention efforts as we 
move from growing our force to shaping it so that we maintain 
vital Marine Corps leadership and critical skills.
    Third, I want to reiterate that a top priority of the 
commandant of the Marine Corps is caring for our wounded 
warriors and for the families of all Marines. Our wounded 
warrior regiment is diligent at work, implementing a new and 
holistic approach to wounded warrior care which makes thriving, 
not just surviving, the expectation of our wounded Marines.
    Likewise, our family readiness programs have undergone a 
host of significant improvements which continue to this day. 
They are made possible in large part by the generous funding 
that you have provided.
    I want to personally thank you, Chairwoman Davis, for your 
recent introduction of a House resolution that recognizes the 
work of our family readiness volunteers. As you mentioned, they 
are a crucial part of the family care and military readiness 
equations.
    In closing, I want to thank you and the other Members of 
Congress for your support and partnership. They have been 
central to the strength that your Marine Corps enjoys today. 
They will continue to be essential as we work to shape the 
Marine Corps of the future so that we always remain the most 
ready when the Nation is least ready.
    Thank you.
    [The prepared statement of General Coleman can be found in 
the Appendix on page 117.]
    Mrs. Davis. Thank you.
    General Newton.

STATEMENT OF LT. GEN. RICHARD Y. NEWTON III, USAF, DEPUTY CHIEF 
 OF STAFF, MANPOWER AND PERSONNEL, HEADQUARTERS, U.S. AIR FORCE

    General Newton. Madam Chairwoman, Ranking Member Wilson, 
and distinguished members of the committee, thank you for this 
opportunity to discuss our efforts as they relate to the fiscal 
year 2010 budget to ensure we attract, recruit, develop, and 
retain a high-quality and diverse fighting force.
    Airmen are the focal point for providing the critical 
capabilities that the Air Force contributes for winning today's 
fight. And while the Air Force has innovative technologies and 
equipment, it is the hard work of our dedicated men and women 
in uniform and our civilians who underscore our success.
    Without a doubt, the tremendous talent of our total force 
airmen and civilians is the backbone of our United States Air 
Force, and our budget proposal recognizes this fact. These 
dedicated volunteer servants are our most important asset. 
Without them, our organizations and equipment would not 
function, our operations would grind to a halt.
    Therefore, we must ensure we have the proper end-strength 
to meet current, new, and emerging missions. For fiscal year 
2010, our active-duty end-strength will be 331,700 airmen, with 
69,500 serving in the Air Force Reserve and 106,700 airmen in 
the Air National Guard. This stops previously planned total 
force end-strength reductions. We will also grow our civilian 
population to a little over 179,000, which includes 4,200 
contractor-to-civilian conversions.
    Simultaneously, we will continue to reshape the skill sets 
of our workforce, with particular emphasis on stress career 
fields and mission areas that need our attention, such as 
intelligence, surveillance, and reconnaissance, aircraft 
maintenance, acquisitions, cyber operations, nuclear 
deterrence, operations, and sustainment. For instance, in 
fiscal year 2010, our manpower investment includes increasing 
our nuclear-related personnel by 2,500 and adding 200 
acquisition professionals.
    The growth in end-strength goes hand in hand with an 
increase in our recruiting efforts, and it goes beyond finding 
the right numbers. We must also ensure that the right quality 
and the right skills are present in our potential candidates.
    And, despite the weak economy, we expect 2010 to be a 
critical retention environment for several reasons: an 
increased need to retain specific skill sets in certain 
specialities; previous end-strength decreases and corresponding 
decreases in accessions; increased operational demands; and new 
and emerging missions.
    Our commitment includes continued support for special pay 
and allowances to address recruiting and retention concerns in 
our health professional skills and our most critical war-
fighting skills such as pararescue, combat control, tactical 
air control party, and explosive ordnance disposal.
    Finally, we are committed to taking care of our airmen and 
their families, to include our wounded warriors, to whom we 
have a never-ending obligation. Over the past year, we tackled 
important issues for Air Force families, such as expanding 
child care capacity, increasing child care support for Guard 
and Reserve families, improving financial readiness, and 
providing opportunities for children of airmen, whether they 
reside on our military installations or in our civilian 
communities throughout the United States.
    The Air Force is leaning forward to be all in. Your 
continued support of our missions to attract, develop, and 
sustain talented and diverse airmen and their families is 
mission-essential, and it is also most appreciated. Our efforts 
to effectively manage end-strength to recruit and retain, 
train, develop, and care for airmen and their families will 
enable us to fly, fight, and win in air, space and cyberspace.
    Thank you for your unfailing support of the men and women 
and the families of the United States Air Force. And I also 
look forward to your questions.
    [The prepared statement of General Newton can be found in 
the Appendix on page 147.]
    Mrs. Davis. Thank you very much.
    Thank you all for your presentations.
    You have all mentioned end-strength, and let's talk about 
that a little bit, because we know that there has been an 
increase in end-strength in excess of the 2009 authorization. 
And what I think we are interested in is your assurances that 
the dollars will be there as we move into 2010, given the fact 
that there is likely to be a bow from those higher end-strength 
numbers.
    What can you tell us about those concerns? And do we have 
that all together?
    I think I would just turn to the serve chiefs initially and 
start with you.
    General Coleman. It is not often they let me go first, 
ma'am, as I am the junior guy, but I will just jump right up.
    Ma'am, I think we are well--we, the Marine Corps--right 
now. We do expect that the funds will go down. We can handle 
that somewhat. It would be a discredit to you if I came in 
right now and said, we have made our retention goal already 
this year. We are two years ahead of schedule on our 
enlistments, but my fear, our biggest fear is that, if funds 
are taken away to allow the critical MOSs to reenlist and to 
bring in those critical Military Occupational Specialties 
(MOSs), then there would be great concern.
    Mrs. Davis. Okay, thank you.
    Admiral Ferguson. From the Navy perspective, there are 
several challenges that we uniquely face and share with some of 
the other services. From a shared perspective, changes in 
entitlements, as the bill goes through the Congress, can affect 
our ability to execute.
    Second, we receive cost increases throughout the execution 
year for housing allowances, subsistence allowances, and so 
those changes in rates greatly affect our ability to execute. 
We feel that the money we put in the budget adequately programs 
and covers the cost of the end-strength that we have.
    In the Navy, a unique case because we received authority 
from the Secretary to over-execute at end-strength this year. 
In the 2010 request, you will see part of our end-strength is 
funded in supplemental, and it covers 4,400 individuals in the 
overseas contingency operations to allow us to provide joint 
enablers to the joint force, where we provide almost 14,000 to 
the force.
    And so, for our funding in 2010, the Overseas Contingency 
Operations (OCO) and supplemental both cover a portion of our 
end-strength.
    General Rochelle. The Army, Madam Chair, is in a fairly 
unique position, not too dissimilar from my brother in the 
Navy, in the sea service here, in that we were funded below the 
547.4, which is the number we have grown to 2 years ahead of 
schedule. As a result, we have a $1.6 billion shortfall in 
2009, which we are hopeful will be covered in full in the OCO 
request.
    And, now, I realize that is here under deliberations by 
this body. But that is key for us if we are, in fact, to be 
fully funded across the fiscal year, fiscal year 2010, entering 
2010 in a balanced way.
    Mrs. Davis. Uh-huh.
    General Newton. Madam Chairwoman, you and the committee 
members are certainly aware that we were on a glide-path down 
to 16,000 active-duty end-strength. We are going to make amends 
to that, and we are going to actually, as I mentioned in my 
opening remarks, will be active-duty end-strength at 331,700, 
and so we have programmed and budgeted for that.
    And so we are absolutely committed to make sure that we 
uphold, both from a funding standpoint but also as we go out to 
recruit and retain, particularly in those critical skill sets, 
that we maintain what we have programmed and budgeted for. We 
feel that we are certainly adequately positioned to do just 
that throughout the program objective memorandum (POM).
    Mrs. Davis. Thank you.
    I know that, Admiral Ferguson, you mentioned the 
supplemental. And so, do any of you--you mentioned that you are 
okay. I think there is a concern that some of that we might 
need to look to an additional supplemental to help those 
numbers be able to support the increased end-strength that you 
have. Is that not a concern for anybody else?
    Admiral Ferguson. From the Navy perspective, in the current 
supplemental for fiscal year 2009, the House Appropriations 
Committee added in their mark of the bill $350 million to 
support the Navy end-strength in this year, and that is under 
consideration in the Senate.
    So, for this fiscal year in execution, that will help us to 
alleviate both the permanent change of station issue you 
addressed in your opening, as well as get us through and cover 
the end-strength.
    Mrs. Davis. Thank you.
    You know, I think the big question for all of us is, is 
there anything in this that would suggest that you have to 
reduce some accounts? And are there impacts on the family and 
welfare accounts that might be felt in 2010?
    General Rochelle. I go back to the $1.6 billion Military 
Personnel Army (MPA) shortfall for Army. And, again, the marks, 
as they make it through the House and the Senate, will 
determine the answer to the question you just posed. It is 
pretty significant for us.
    Mrs. Davis. Uh-huh. All right.
    General Coleman. Madam Chairwoman, for 2009, we feel good. 
But when you speak to 2010----
    Mrs. Davis. No, we are talking about 2010.
    General Coleman. Yes, ma'am. We are concerned that a large 
cut in 2010, especially in recruiting and retention and our 
family readiness programs, that would be brutal to us, ma'am.
    Mrs. Davis. Thank you.
    My time is up. I will turn to Mr. Wilson, and we will start 
the round of the panel.
    Mr. Wilson. Thank you, Madam Chairwoman.
    Again, thank all of you for your successes.
    And right in line with discussing some budget cuts, 
recognizing that there has been a cut in the recruiting and 
retention of nearly $800 million--and I indicated my concern 
about that in my opening statement--I am interested in hearing 
your assessment, all of you, as to where the risk may exist in 
the proposed cuts in recruiting and retention. And, in your own 
view, does the budget request cut too deeply for 2010?
    General Rochelle. Well, let me start, if you will, 
Representative Wilson.
    First of all, you are familiar with my experience in the 
recruiting world directly. And my concern would be that we 
are--we are funded adequately in 2010. However, however, we 
must be careful that we don't yo-yo across the POM, we don't 
yo-yo the resourcing of the recruiting initiative. Frankly, 
because it is imperative that we have a fairly steady stream 
and predictable stream of resourcing to resource both 
recruiters, advertising, and all of the associated support 
structure that, day to day, helps our recruiters be successful.
    As a matter of fact, hours before I came to the Hill, the 
new commanding general of U.S. Army Recruiting Command paid a 
visit on me, and we had this very discussion. The discussion 
centered on the fact that we are in a very positive place today 
relative to where the Army was in 2005, the year I left 
Recruiting Command, a very different place, largely because of 
the economy. But there are already signs that the economy is 
beginning to make a slight turnaround. And so we must think 
strategically about recruiting in that new environment and not 
be lulled into a false sense of security from where we are 
today.
    Ms. McGinn. I would just say that we are very aware of the 
risks involved when you cut the recruiting account and believe 
that we have taken a prudent risk here with this particular cut 
because of the status of recruiting and retention and the 
overall status of the economy.
    But my colleagues and I watch recruiting data monthly. They 
probably watch it more frequently than I do. So we need to be 
very vigilant in terms of keeping an eye on what is happening 
both in the economy and with the recruiting endeavors so that, 
if there is something to be corrected, we can correct it.
    General Coleman. I would say again, sir, our concern in the 
Marine Corps is more drastic in the reenlistment bonus, the 
retention side of it, than the initial accession of it. So, too 
large a cut would be--because you can't make that up when there 
is critical MOSs and critical Marines to fill those MOSs, and 
when they go out, you can't get a seven-year veteran by someone 
coming in the front door.
    So I think it is imperative that we maintain our selective 
reenlistment bonuses, sir.
    Admiral Ferguson. With respect to Navy, we did take a minor 
reduction in advertising, where we felt that was a prudent risk 
to take in balance, but yet we increased our accession bonus 
program, and we kept the number of recruiters in the field. We 
figured that is the strength of our program, in bringing in new 
sailors.
    General Newton. Sir, may I also add from, perhaps, a 
different approach, the pool of talent and American youth that 
we can go after--I know we have discussed this previously in 
other hearings--is a challenge for all the services and 
particularly for the Air Force.
    As you go about trying to find specific critical skills, 
not only from a recruiting standpoint but a retention 
standpoint as well, because even though we are in a downturn of 
our economy, many of those skills that airmen bring to the 
fight are skills that a lot of employers in the commercial 
sector put an eye on the prize as well.
    So there is no letup, there should not be any letup, and 
the same effort, either in a downturn or an upturn, as General 
Rochelle described, you know, the strategic effort ought to 
still be maintained.
    Mr. Wilson. Well, I appreciate all of you.
    And I want to point out, I appreciate Chairwoman Davis 
visited with me at Fort Jackson, the recruiting and retention 
school, last year. And that was an extremely rewarding 
experience to me, to see the dedicated personnel. But it 
reinforced my concern over budget cuts, in that, General 
Rochelle, you all have helped create an extraordinary 
technological base. It makes you feel really good to know of 
the capabilities that you used to recruit people for the 
opportunity of military service.
    Thank you very much.
    Mrs. Davis. Thank you, Mr. Wilson.
    Mr. Murphy.
    Mr. Murphy. Thanks, Madam Chairwoman.
    And thanks to all the briefers today for your continued 
service to our country.
    And I especially want to highlight General Rochelle and 
General Coleman. Thank you for your great service to our 
country. I wish you all the best in your future endeavors. And 
we are very proud, as a Nation and a Congress, for all that you 
have done.
    Part of my questions, frankly, were already addressed by 
the opening statements and also by the questions, so let me ask 
and try and drill down a little bit.
    General Rochelle, you mentioned, as did General Newton just 
a second ago, about the eligible population to join the 
military is declining, and that is a national issue. You all 
have physical fitness standards, and you have a great 
leadership model on how to get your folks in tremendous shape.
    What advice do you give to Congress, what do you think we 
should do? I know this is kind of, probably, out of the box; 
you probably didn't prep for this. But what would you advise 
the Congress of the United States, what should we be doing to 
inspire the American people to follow your lead?
    General Rochelle. I will defer to the junior member of the 
panel.
    General Coleman. Thank you, sir.
    If we could just continue, as a Nation, to emphasize 
physical fitness. It is a lot easier, I think we all would say, 
to stay in shape than it is to get in shape. So I think if we 
can--and I think you probably know this, sir, having served: 
There is a large percentage of the population that is not 
physically fit. And that is deplorable, when you think about 
what it was when we were growing up, when you had to take gym, 
and now you can opt out of gym. And you can't regain those 
muscles in a short period of time.
    So if we could stress, and I don't just mean for a day, but 
if we could stress physical fitness. And I think a healthy body 
leads to a healthy mind. So, as a Congress, as a Nation, if we 
could stress physical fitness, I think we would be on the right 
track, sir.
    General Newton. If I may add, Representative Murphy, it is 
also, to add to what General Coleman said, it is a call to 
service, as well. It is one that--I believe our generation has 
seen a more fit lifestyle, a more fit approach. Certainly, as I 
have gotten into my fifties, it is planning for the future as 
well.
    This is a national challenge we have. One of the largest 
challenges we have with regard to being able to reach into 
America's youth, much less to entice them to come into the 
service, is because of the obesity issue we have among American 
youth.
    And so, that behooves us who are perhaps more senior, 
regardless if you happen to be a Member of Congress or serving 
in the military, you be fit to fight, as we say in the United 
States Air Force. And so we have walk the walk and talk the 
talk and show our commitment in resources and so forth. But I 
believe it is a significant call to service that somehow if we 
can fill that gap.
    General Rochelle. Sir, first of all, I would like to thank 
you for your very gracious comments about General Coleman and 
my service. And I would simply add that, not unlike all of our 
great soldiers and Marines and airmen and sailors who serve, it 
is our families who really deserve the credit.
    To your question, and just to add on to what my wingman 
said here about obesity, the larger issue is high school 
completion and the declining rate of high school completion.
    A couple of data points--and I will try to do this very 
quickly. If you look at high school graduation rates nationally 
and segment those rates by race, ethnicity, levels of poverty, 
and then the general population, you see some pretty alarming 
trends. Only one out of three, anywhere in the Nation, 
regardless of race and regardless of the level of income for 
the family, will graduate--I beg your pardon, I said that 
incorrectly--30 percent will not graduate.
    If you now add the level of income at or below the poverty 
level, that number that will graduate, irrespective of race or 
ethnicity, drops to 50 percent. Add one more layer of 
segmentation, and we are now looking at race, poverty level in 
general, and 70 percent will not graduate on time.
    And I have talked about this a number of different times in 
various committees on the Hill. It really is a national 
tragedy. And for us to think that we can remain strategically 
competitive, not to mention a strong defense, with those types 
of trends is foolhardy.
    Mr. Murphy. I know my time is up, but I thought that 
President Obama's speech at the State of the Union when we 
talked to the American people, looked them in the eye and said, 
``When you graduate--if you drop out of high school, you are 
not just quitting on yourself, you are quitting on your 
country.'' I thought that was exactly the right tone, and 
putting the burden back on not just the teachers but it starts 
at home, education. And we need that accountability and that 
responsibility.
    And I yield back the balance of my time. Thank you very 
much.
    Mrs. Davis. Thank you.
    Dr. Snyder.
    Dr. Snyder. Thank you, Madam Chair.
    I wanted to ask--as you may know, another subcommittee here 
is doing a study of professional military education in 
residence, professional military education (PME). In fact, 
General Coleman, I now understand why, when I was at the Marine 
Corps University yesterday, I was the only one eating the 
donuts and the Marine officers were not. It all becomes clear 
to me now.
    But I wanted to ask two questions and have you each 
respond. The first one is with regard to faculty the in-
residence PME schools, and the second one is with regard to 
students.
    The first one is, how are faculty selected for the in-
residence PME programs? Both how they are selected, and then 
what does that mean for them down the line? I won't tell you 
which service, but we heard from a couple of people yesterday 
that said they were told by all their friends, don't take the 
position, it was a dead-end for them to be assigned as a 
faculty member at one of the schools.
    And then, second, with regard to the students, how are 
students assigned to these schools? And how are decisions then 
made with regard to what their next assignment--you know, when 
and how is that process, as far as their next assignment after 
the school?
    General Coleman.
    General Coleman. Yes, sir. Thank you, sir.
    As far as the faculty, the faculty is selected both by the 
head of our MMOA--that is the manpower management officer 
assignment side of it--in conjunction with the president of the 
university. So his or her record jacket is screened, goes to 
the school, and the school has say, the Marine Corps 
University, in, yes, this person should or should not be an 
instructor.
    Dr. Snyder. But what are the criteria by which you make the 
decision to send those to the school to be looked at?
    General Coleman. Sir, probably one of the first things 
would be promotability. I will use myself as an example. When I 
was an instructor at our Amphibious Warfare School, which is a 
company-grade school, 12 members of the faculty, seven us were 
selected to general officer. So, in the Marine Corps, if you go 
to be an instructor at a school, you know that you have been 
selected.
    Now, whether it means that you have all A's or all B's, I 
don't think we do that. We look at the jacket. We look at 
intelligence. We look at personnel appearance. We look at 
physical fitness. We look at the whole-man or whole-woman 
concept. And then the president of the university still has 
some say, maybe not the final say, but he or she does have some 
say in that person coming to the school.
    As far as the students, there is a board that convenes, 
just like a promotion board. And I would say, for some schools, 
like our top-level schools, your chances of making colonel are 
better than they are getting selected to school. So it is a 
hard nut to crack, from where I sit, sir.
    Admiral Ferguson. From the student perspective, when naval 
officers go through--I will speak about the unrestricted line--
when they go through their screening boards at the O-5 and the 
O-6 level, generally if you are in the upper half of the group 
that screens and you are assigned a code, it makes you eligible 
to go to a senior war college. And then the distribution 
process will allocate those among National Defense University, 
the Naval War College, the various seats that we have to fill. 
So for our unrestricted line, they are screened by a board and 
then assigned a code that generally represents the top half.
    We are driven in those pay grades primarily by command 
opportunities. And so we don't ascend them right away; it is 
adjusted based upon when their command tour is of a fighter 
squadron, let's say, or a submarine or a surface ship.
    With regard to the faculty, the faculty are generally 
senior officers, O-6, at the Naval War College who have had 
prior master's degrees, most have had a prior tour, but they 
are nominated by the Bureau of Personnel to the president of 
the Naval War College for selection.
    General Rochelle. Army's procedures are not terribly 
dissimilar from those of the Marine Corps and the Navy, the sea 
services. However, for our intermediate-level education, I 
believe you know, sir, that that is universally offered to all 
officers at a certain grade level. Whether it is done in 
residence at Fort Leavenworth, Kansas, which is our flagship 
intermediate-level education institution or whether it is done 
in a distributed fashion at one of several installations across 
the United States, where you can get the same level of training 
and education but it is broken up into segments and some of it 
is done via distance learning, it is universal intermediate-
level education.
    Your question about faculty--make no mistake about it, the 
Army is challenged right now to ensure that we have the very 
best faculty in place in our institutions of higher learning 
and training. The demand for that very best talent, from 
theater and elsewhere around the globe, is enormous. However, 
having said that, as my fellow witnesses have stated, the 
leaders of each of these institutions has a voice in whether or 
not an officer is acceptable to be on the platform.
    Let me go to the next level, the Army War College. First of 
all, for that level of education and training, the capstone, if 
you will, for most officers, that is a board selection 
process--best qualified. The availability of the officer to 
attend, however, is somewhat impacted by the level of demand on 
the Army today.
    And one final point, if I may return to the intermediate-
level education, two years ago we launched a pilot program, 
which I coined the phrase, ``leader development assignment 
panel.'' The leader development assignment panel was designed 
to take a look at, are we, in fact, sending our very best and 
our brightest to our intermediate-level education in resident 
training? With a view toward where I think your question is 
heading, are we making the appropriate investments for the 
future, for the next Global War on Terror or downrange?
    And for two years, we have received very, very positive 
feedback from the panel members. And we have indeed adjusted, 
as a result of those pilots--we will do a third one this year--
whether individuals are sent to fellowships, whether they are 
offered an opportunity for a graduate-level education, or the 
resident intermediate-level education. All of the above are on 
the table.
    General Newton. Sir, just briefly, a similar process in 
terms of selection, both for our faculty and students. Our 
faculty, first we look at their professional credentials as 
well as their academic credentials and, also, their desire to 
serve as instructors, particularly at our Air War College and 
Air Command and Staff College.
    I can also tell you, from a student selection standpoint, 
those for intermediate development education or senior officer 
development education, again, those are board results. We take 
generally our top 15 to top 25 percent.
    The actual selection and where they attend school could be 
at Air Command and Staff College or Army Command and Staff and 
so forth. I actually chair that board every fall and identify 
which students will go to what particular development education 
from that point on.
    But it is, again, one that we put a lot of attention to. 
Because, as we are trying to not only develop certain 
professional qualities, it is also how they go about in their 
strategic thinking. How are they beginning, again, now, to 
become those strategic thinkers and those strategic leaders as 
early on as we possibly can to impact their professional 
development.
    General Coleman. Can I add one more thing, sir?
    Dr. Snyder. Please.
    General Coleman. And I should have started off with this. 
If you are not what we call PME complete, so if you haven't 
attended or haven't completed the schooling for your grade, 
then you do not get promoted.
    Dr. Snyder. Thank you.
    Mrs. Davis. Thank you.
    Mr. Loebsack.
    Mr. Loebsack. Thank you, Madam Chair.
    Thanks to all of you for being here.
    And, also, in particular, General Rochelle and General 
Coleman, it is my third year in Congress, and I have gotten to 
know you some. And I am going to miss you, but hopefully I will 
see you in another context in the future.
    Just to follow up on some of the earlier comments that were 
made and questions asked, while Mr. Murphy is out with the 
baseball team preparing for the big game in June, I normally go 
out running. And I go over by the Armory and go out into the 
Robert F. Kennedy Stadium parking lot, along the river there, 
and across over the Anacostia and go into the park on many 
days. And I see a lot of the folks from the services who are 
over there working out, doing their tests, running, that sort 
of thing. And, you know, I wish I could stop and talk to them 
and encourage them to continue to do it and all the rest, but 
of course they are running and I am running and that is not 
possible. But I think that it is just absolutely fantastic. And 
I think if we take a lifelong approach to this, too, I think 
that is really the way to do this.
    Also, on the education front and the high school dropout 
issue, there are at least two of us on this subcommittee who 
are on the Education and Labor Committee. And the dropout 
factory problem is a huge one across the country, high schools 
where there are disproportionate numbers of folks who drop out 
and don't graduate. And we are trying to address that on the 
committee. I actually have legislation, myself, trying to deal 
with that issue, as well. So we are going to continue along 
those lines, and this is where we can cross over, as far as 
committees are concerned, I think.
    But, along those lines, what, if anything, is being done by 
services as far as encouraging--I mean, it is a problem, but 
encouraging folks to stay in school and helping folks to get 
their high school degrees?
    General Coleman. For us, sir, that is a recruiting tool. 
And we look at every Marine as a recruiter. But as our 
recruiters visit schools, I think that is the best way we can 
do it. And I would say that most Marines would never pass up a 
chance to go speak to a school or to children in any part or 
any fashion. But it is one of those things that you have to be 
accessible and they have to allow you in it. But I think that 
is the key.
    Mr. Loebsack. If I might follow up, when the recruiters go 
to the high schools, they also then obviously encourage 
students to stay in school? Is that something they do as well?
    General Coleman. Yes, sir. And that is service- and also 
DOD-directed because of the propensity of a high school 
graduate to do well in the service and stay. So, yes, sir.
    Admiral Ferguson. Some of the other services--the Navy 
Junior Reserve Officers Training Corps (NJROTC) program in the 
high schools, we have 75,000 students. Most are diverse and in 
lower-privilege areas. But when they complete to graduation, 65 
percent go on to higher education and 45 percent come into the 
service. That is a real strong program for us, and we have over 
600 units around the country.
    General Rochelle. Sir, I would add one thing that we are 
very proud of. First of all, every soldier encourages young 
people, whether it is in his or her community or on a military 
installation, and the high school resident on that installation 
encourages young people to stay in school. And that is 
especially true of Army recruiters, as well.
    But since we are at such an epidemic state on this--and 
you, obviously, know quite well that it is epidemic--the Army 
has launched an Army Prep School at Fort Jackson, South 
Carolina. And the Army Prep School is our effort, with DOD 
support--I recall having several conversations with Dr. David 
Chu about this, and he was very supportive. But as a result of 
those efforts, in 2009, 1,500, almost 1,600 young persons who 
would not have received a high school diploma did so through 
the Army Prep School.
    Now it is an equivalent today. But, working with the 
Governor of South Carolina, we expect that, before the end of 
fiscal 2009, it will indeed be a certified high school diploma. 
That is a small effort, but it is a start.
    General Newton. Just as a short follow-up, we also see our 
airmen as role models in whatever communities they serve. There 
is a total force aspect of that from those who are serving in 
active duty, but Guard and Reserve as well. I almost see that 
as a responsibility that they have as wearing the uniform.
    I would also add that it is not just the students 
themselves, but to go after the influencers in the communities. 
And that could be found in the school, it could be found in a 
variety of organizations throughout.
    The last point I would raise, in terms of the challenges 
that we have with regard to recruiting, whereby perhaps we 
focused on high school, 11th, 12th grade, perhaps we are now 
being compelled to reach into lower grades, as well, to begin, 
because of the challenges that we have already discussed here.
    Mr. Loebsack. Well, thank you all.
    General Rochelle. Sir, may I please edit my numbers? The 
1,600 are the numbers who were entered into the program. The 
number of graduates is 1,376.
    Mr. Loebsack. Okay, thank you.
    And, Madam Chair, if I could, I would like to submit a 
question for the record, also, on access to family services, 
especially for the Reserve component.
    [The information referred to can be found in the Appendix 
beginning on page 165.]
    Mrs. Davis. Okay, thank you.
    Ms. Tsongas.
    Ms. Tsongas. Thank you very much for your testimony.
    I would love to hear more at some other time about the prep 
school. It is South Carolina-specific?
    General Rochelle. Yes, ma'am, it is, because of the support 
from the Governor of South Carolina.
    Mr. Wilson. But students from across the country.
    General Rochelle. That is correct. I beg your pardon. I 
didn't understand that was your question. They are from across 
the country.
    Ms. Tsongas. I was going to say, you are doing very well 
here.
    I am going to change the subject a little bit, if I might, 
and I think this will be directed to General Rochelle and 
General Coleman. General Casey mentioned at the Army posture 
hearing last week that we can expect the operational tempo to 
increase through fiscal year 2009 and into 2010. This is 
despite the fact that both the Army and the Marine Corps are 
projected to achieve their programmed end-strength increases by 
the end of this fiscal year.
    How soon can we see a reduction in the operational tempo 
and an increase in dwell time for Army and Marine Corps combat 
and support units?
    General Rochelle. Thank you for your question, ma'am. 
First, let me elaborate on what the Chief said and say it in 
the way that I would articulate it.
    Before we see a net reduction in demand, we are probably 
looking at 12 months to 18 months into the future. And that is 
if everything goes according to plan, with responsible drawdown 
in Iraq and buildup to some acceptable level of forces in 
Afghanistan.
    It is a little bit like, an analogy, if I may, of having an 
aircraft carrier battle group replace an aircraft carrier 
battle group in the middle of the Pacific. For a period of 
time, the Chief of Naval Operations has two equivalents of 
battle groups tied up that he can't do anything with until the 
one being relieved recovers. It is no different for a brigade 
combat team. It is no different for a combat aviation brigade 
replacing another combat aviation brigade.
    If that demand, eventually, at the end of 12 to 18 months, 
does begin to diminish and we see a net reduction--and, by the 
way, history suggests that demand continues to rise. Yesterday, 
in testimony in the other body, I used the analogy, if the past 
is indeed prologue, then we may be headed for trouble.
    But, optimistically. If we see the demand reduced, then we 
will be able to see also an equivalent reduction in the current 
dwell time, which, for the active Army, is one year deployed 
for every 1.3 years at home. That is unsustainable, completely 
unsustainable. For the Army Reserve and Army National Guard, 
the dwell is one year deployed for less than three years at 
home. Even at that rate for an operational reserve, that is way 
too high.
    So the long answer to your question, 12 to 18 months from 
now, if all goes according to plan.
    Ms. Tsongas. And let's assume for a moment that things 
don't go according to plan and, in fact, there is a need for 
overall increases, what kind of planning and thinking is taking 
place to respond to that?
    General Rochelle. We are actively considering--and this is 
a discussion we are having inside the Army at this point and 
will soon have at the Department of Defense level. We are 
actively considering whether or not, in order to mitigate the 
risk that you are articulating, ma'am, if we shouldn't look at 
other means of having a temporary wartime allowance. But that 
is an internal discussion, at this point.
    Ms. Tsongas. General Coleman.
    General Coleman. Yes, ma'am. Thank you, ma'am.
    At this time, with our growth, we have seen improvement in 
our dwell time. Our overall average now, where it was--and, 
unlike the Army, the Marine Corps is seven months out, seven 
months back, and our goal is three to one. We started off at 1-
to-1.8. We are now at 1-to-2.4, so almost 2.5, a cycle back.
    With the drawdown in Iraq, with the increase to our 
202,000, I would suggest to you that during fiscal year 2010, 
we will conceivably get to where we want to be. But, again, as 
General Rochelle says, that is contingent upon things coming 
down out of Iraq in the way we think and depending on what 
happens in Afghanistan. But we have seen an increase in our 
dwell time.
    Ms. Tsongas. Thank you. I think my time has run out.
    Mrs. Davis. Thank you very much.
    Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Madam Chairwoman.
    And good afternoon to all our witnesses.
    I would like to ask you, General Rochelle or Ms. McGinn, a 
question about the Army National Guard's end-strength. I 
represent Guam, where National Guard and Reserve personnel 
outnumber, per capita, any State in our Nation. And our ranking 
member, Mr. Wilson, will attest to that, because we attended a 
ceremony where these records were revealed.
    The Guard is authorized for an end-strength of 352,600, 
according to your reports here, but is currently at an end-
strength of over 368,000. Given that the Commission on the 
National Guard and Reserve has indicated that the National 
Guard is a highly cost-effective means of national defense and 
that the National Guard has demonstrated through innovative 
means that it can meet end-strength goals, can you describe the 
benefits of permanently increasing the Army National Guard's 
end-strength to 371,000? And I want to also add to that, 
keeping in mind that they have a domestic role to play.
    Ms. McGinn.
    Ms. McGinn. I think that is a good question. General 
Rochelle may have a better answer, but I think I would need to 
consult with my colleagues back at home to give you that for 
the record so that I can give you a thoughtful response to it.
    [The information referred to can be found in the Appendix 
on page 161.]
    Ms. Bordallo. Thank you.
    General.
    General Rochelle. It is a very good question.
    First of all, let me say that the Army National Guard--and 
I know it is true for the Air National Guard, as well--is an 
extraordinary force, more so today than ever in the past, 
because it has migrated from the strategic reserve context to a 
much more relevant context, that of an operational reserve. And 
we are asking a great deal of our Army National Guard and Air 
National Guard soldiers, airmen, and leaders.
    However, an operational reserve--first of all, let me say 
that 358,200, which is the current authorization, is 
sufficient, in my estimation, to cover down on both operational 
reserve demands in the Global War on Terror today, as well as 
to address the needs of governors across the United States and 
Guam.
    Whether or not it would be efficacious to grow the Guard 
beyond that should be based upon operational demands, either in 
the state or operational and increased demand that we see for 
forces--Army forces and air forces--in the current environment. 
And I think it would be a prudent move, with that, to look at 
it strictly from the perspective of the demand for those 
forces.
    There remains some reshaping that we may need to look at 
for the Guard in terms of structure, what is in those forces at 
358,200.
    But I would like to conclude by simply echoing, once again, 
Lieutenant General Clyde Vaughn, who you may know, a great, 
great leader who will retire on the 1st of June, is both my 
next-door neighbor and dear, dear friend. And he deserves many 
of the same accolades that the chairwoman and others have 
bestowed upon General Coleman and myself.
    Our Guard, the Army National Guard in particular, is 
awesome.
    Ms. Bordallo. If I could just add to that, what are the 
potential benefits of creating a Trainees, Transients, Holdees, 
and Students (TTHS) account for the Guam National Guard?
    General Rochelle. Actually, I would expand my answer to 
your question. Creating a TTHS account for the Army National 
Guard and the Army Reserve would be a very prudent move, very 
prudent.
    Ms. Bordallo. Very good.
    And one other short question, Madam Chair, just a short 
question. I think Ms. McGinn would probably be the best to 
answer this. This is for my own information.
    What are the percentages of members of the military 
personnel--now, this is the active military personnel--who 
continue in the military service, make it a career, as opposed 
to those who leave the military service? Do you have any 
numbers? And that would include all the branches.
    Ms. McGinn. I think it would vary by branch. The Marine 
Corps has had--and General Coleman can speak to this--Marine 
Corps has had higher turnover of first-term Marines than the 
other services. And so I think that we would have to get you 
those numbers by branch.
    [The information referred to can be found in the Appendix 
on page 161.]
    Ms. Bordallo. I would appreciate that. And I didn't want to 
go into all the branches here, but just overall what the 
retention is.
    Thank you, Madam Chairman.
    Mrs. Davis. Thank you.
    I want to turn to a discussion about those service members 
who are unavailable to deploy, we call them nondeployables, but 
who are not able to deploy with their units for whatever 
reason.
    General Chiarelli mentioned recently, the Army Vice Chief 
of Staff, that the number of Army service members who are 
nondeployable has become a burden on the force that threatens 
the Army's ability to fill deploying units to required levels 
and to achieve its objectives to reduce operation tempo and 
increase dwell time between deployments.
    It sounds like that active nondeployable population is 
around 27,000, is that correct, as of April of 2009?
    And I wonder, General Rochelle, if you could comment then. 
Given this current number, was the Army forced to give up the 
brigade combat teams (BCT), going from 48 to 45, as a result of 
that? Is that at play here, that the additional end-strength 
for manning those levels couldn't be achieved at the higher 
level? Where does that come into play? I mean, obviously, the 
shift from 48 to 45 BCTs has an impact, in a number of ways, 
for the ability to carry on the operations.
    General Rochelle. An excellent question, Madam Chair.
    And let me say at the very outset that the shift from 48 to 
45 brigade combat teams, as has been testified in the past by 
both the Secretary of the Army and the Chief of Staff of the 
Army--and I think the Vice Chief, as well--was intended to give 
us the ability to thicken our forces. In other words, we 
weren't chasing that additional structure inside a 547,400 end-
strength, which would have stretched us even a little bit more. 
So it was a prudent move, but it remains to be seen over time 
relative to demand.
    To your specific question, 26,936 nondeployables, temporary 
as well as permanent nondeployables, were indeed reported 
through our unit status reporting process in the month of 
April. And I want to emphasize that it is a moving target. A 
soldier who is nondeployable for a temporary reason this week 
may be fully deployable next week, and vice versa. So it moves 
fairly substantially.
    But I will bring it into focus at the brigade combat team 
level. The Army G1 tracks, through rear detachment reporting, 
for our next-to-deploy brigades what the nondeployable rate is 
inside that brigade, frankly because it is a measure of whether 
or not we are going to meet our very, very critical gates in 
terms of operational manning for that deploying unit. And we 
are committed to ensuring that we deploy, as I said in my oral 
statement, the best trained, the best equipped, and the best 
led, and that includes the best manned.
    The last 14 brigade combat teams, as we looked at their 
average nondeployables, averaged 11 percent, which is up, I 
might add, from over a year ago, prior to the surge, where 
nondeployable rates were trending between 8 percent and 10 
percent. As we look at the most recent brigades, five, to 
deploy, of that 11, we saw an uptick to 12 percent.
    Now, that is somewhat alarming for two reasons. I think it 
illustrates the cumulative effect of seven-plus years of war. 
It represents the impacts of too short dwell, 1.3 years at home 
for every one year deployed. And it is cumulative. And we are 
gaining some tremendous insights as a result of that.
    To your question, however, we are able to deploy today the 
best trained, the best manned, the best equipped, and the best 
led soldiers downrange to do the Nation's bidding. Back to the 
question of risk, in terms of the future, my concern would be, 
if we cannot bring that dwell down, then we will begin to see 
other problems in addition to the ability to meet the manning 
levels.
    Mrs. Davis. Yeah.
    Others? General Newton, would you like to comment on that?
    General Newton. Other than the fact that, again, we try to 
focus on our Expeditionary Air Force and our expeditionary 
airmen to make sure that their contribution to the fight, that 
they are ready, they are trained well for whatever the joint 
war-fight may take us.
    Mrs. Davis. Admiral Ferguson.
    Admiral Ferguson. The Navy population of limited duty or 
medically not able to deploy is relatively small, roughly in 
the two percent to four percent range of the enlisted force. So 
it is not a significant problem. And our Safe Harbor Wounded 
Warrior program has about 400 individuals, for example. So, for 
us, it is not as significant an issue.
    Mrs. Davis. General Coleman.
    General Coleman. Yes, ma'am. For us, the nondeployables--
and we have and I would believe all the services have what we 
call P2T2, and that is the Patients, Prisoners, Trainees, 
Transients. And that is an everyday occurrence, and every day 
that changes.
    But when you take that away and you are talking about 
combat units deploying, the Marine Corps will not deploy a 
unit--infantry battalion is deployed at 100 percent. Now, what 
that means is that a unit deploying has 100 percent but the 
unit back home may not be at 100 percent because we stole from 
Peter to pay Paul.
    Mrs. Davis. And I guess we end up with more individual 
augmentees as a result of that, too, which creates some 
additional problems; is that correct?
    General Coleman. Not in infantry battalions, ma'am. When 
you go to an infantry battalion, you have--for the Marine 
Corps, anyway--we have a six-month buildup. So when you deploy, 
you have been with that unit for 6 months before they deploy.
    Mrs. Davis. Okay. Thank you.
    General Rochelle. In our case, because we are committed to 
eliminating stop-loss, the challenge that I just articulated 
makes the mountain that we have to climb just a little bit 
higher.
    Mrs. Davis. Uh-huh. Okay. Thank you.
    Mr. Wilson.
    Mr. Wilson. Actually, the brigade combat teams question, 
the number reduced from 48 to 45, was my interest. So I 
appreciate that that has been discussed.
    And so I would be happy to defer to Dr. Fleming.
    Mrs. Davis. Dr. Fleming, welcome.
    Dr. Fleming. Okay. Thank you, Madam Chairman.
    Well, first of all, let me say that I thank you for being 
here today to testify. And on the issue of personnel, that is, 
in my opinion and I think the committee as a whole, to be the 
most important asset that we have in armed services. So I 
appreciate your focus on that.
    More specifically, Ms. McGinn, in your testimony you 
mention that DOD is looking at altering the meritorious award 
system, medals, based on the new realities of the war on 
terror. Can you elaborate on that some?
    Ms. McGinn. Yes. As a result of action from the Congress, 
we have new medals now for Iraqi Campaign Medal, Afghanistan 
Campaign Medal, Global War on Terror Expeditionary Medal, and 
the like. And so what we have been doing is systemically going 
through our records and policies for awards of medals and 
meritorious citations, and we are updating our policies on that 
to reflect the new kinds of decorations that we have for now.
    Dr. Fleming. Thank you.
    Is there any change in the Valor Award criteria?
    Ms. McGinn. That I don't know. I will have to get back to 
you.
    [The information referred to can be found in the Appendix 
on page 161.]
    Dr. Fleming. Anyone else on the panel have any input?
    General Rochelle. Sir, let me comment on that, if I may. I 
was a member of the panel, a member of the board, if you will, 
working that issue in the Department of Defense. And almost 
unanimously--I believe it was not unanimous--but I want to 
mention something here that I think is very important.
    Each of the service senior enlisted advisors were present 
on this matter of valorous awards. And, to a person, they felt 
that we should not change the valorous award criteria--and I 
concurred with that and supported it--while we are in our 
current conflict.
    Dr. Fleming. Okay.
    I will ask a totally unrelated question. You know, there 
has been this problem or issue with two wars that have gone on 
longer than we would have liked at levels that are more intense 
than we would like.
    I would love to hear from the panel, whoever would like to 
step up on this one, what is the sustainability of that? You 
know, we have a very active Reserve. They are not a reserve 
Reserve in the classic sense any longer. And some people who 
have been in the Reserves have had several deployments, have 
been more active-duty than they have not-active-duty.
    So I would love to hear comments from the panel on this.
    Ms. McGinn. Can I just say that, if you look at the 
retention statistics from the services, where just about every 
retention goal has been met, it tells you that the All-
Volunteer Force is working.
    The Gates Commission that was the commission that 
recommended the All-Volunteer Force had predicted that, in a 
time of prolonged conflict, it wouldn't stand up. But it is 
doing very, very well, thanks to the work of my colleagues here 
and thanks to your help. Because what is very critical are the 
bonuses and the funding for recruiting and retention that we 
get. And so we are sustaining very well, at this point.
    General Newton. Sir, if I may, just to briefly chime in, it 
is certainly a total force effort, not only from an active-
duty, Guard and Reserve standpoint, but also the aspect of how 
we, as the United States Air Force, contribute to that joint 
fight.
    I would also mention to you that, for 2009, we have 
dedicated it the ``Year of the Air Force Family.'' And the 
reason I say that is the balance of effort and resources and so 
forth, it is important to us not only on our men and women in 
uniform, regardless of active-duty, Guard and Reserve, but also 
our family members as well, that we emphasize their value, 
their service, and their commitment.
    Dr. Fleming. Anyone else?
    General Rochelle. Sir, for the Army, it is about dwell. It 
is whether or not we will have the ability, as predicted, to 
have a slightly less demand--or a substantially less demand 
that would allow us to get to the optimum levels of time home 
against time deployed for the active component as well as the 
Army Reserve and Army National Guard components.
    And the current level, as I said earlier in my testimony, 
the current levels of dwell are unsustainable.
    Dr. Fleming. Okay.
    Yes, sir?
    Admiral Ferguson. In our survey data of members and their 
families throughout the conflict, what we have seen is that the 
support of the Congress, in terms of compensation, health care 
is extremely important and access to it, the family support 
programs. We have had to expand our own health care programs, 
providers, as well as family support programs. And that has 
been the biggest ability that we have demonstrated, I think, to 
support families and has kept morale high.
    General Coleman. Thank you, sir.
    Sir, I would say that, for the Marine Corps, we are doing 
extremely well. Our reenlistment rates are higher amongst those 
marines that deploy than those that do not deploy. I believe 
our families, thanks to you all, are being taken care of much 
better than ever before. And, as importantly, the American 
people support the military to a higher degree.
    Ms. McGinn. Can I throw one more thing into the mix? One of 
the things that we are doing now, it is really a new 
initiative, is building a civilian expeditionary workforce so 
that our civilian employees can step up to do some of the 
missions that our military personnel have to do right now, 
particularly in the phase-four post-conflict operations, 
stability operations, humanitarian missions. We are asking 
civilians who would be willing to come forward and volunteer to 
be sent on those kinds of assignments to identify themselves.
    And we have a few thousand in the mix, and it is a brand-
new initiative. So it is very small right now, but hopefully it 
will pay off in the future.
    Dr. Fleming. Madam Chairwoman, if I could just close the 
loop on this very quickly, let me say that an All-Volunteer 
Force is an expensive force, but I think it is a great 
investment. I think it is worth every penny of it.
    My understanding is that the active-duty member today is 
likely to have a family, as opposed to in previous years. And 
it would be my sense that they can perform much longer overseas 
in harder conditions if they know their families are well taken 
care of, which I think is such a high priority today. And so I 
thank you in your efforts in doing this.
    I yield back.
    Mrs. Davis. Thank you.
    Ms. Tsongas.
    Ms. Tsongas. I hate to pick on you, General Rochelle, but 
since you mentioned stop-loss, I just am curious: Again, do you 
think that you can achieve the timetable that is in place? And 
is it subject, really, to the dynamic of how we are able to 
bring down soldiers in order to respond to the needs in 
Afghanistan?
    General Rochelle. It cannot be done in isolation from the 
challenges of deployers, nondeployers, et cetera. It 
exacerbates the challenge. But we can do it. We can absolutely 
do it. But we will be challenged.
    Ms. Tsongas. So the timetable, you still feel confident, 
or----
    General Rochelle. I do.
    Ms. Tsongas. You do.
    And then the follow-up question is, in terms of the 
sustainability and the issue of dwell time being so key, 
General Chiarelli, I think, recently testified of the enormous 
mental strains that our soldiers are currently experiencing, 
and the need we have for mental health care professionals, 
chaplains and I think he said substance abuse counselors.
    So, as you face many questions, really, around how quickly 
you are going to be able to address the issue of dwell time, 
knowing the great strains that are going to continue to be 
placed on our soldiers, how are you responding to that in terms 
of the need for these professionals?
    General Rochelle. Well, we have actually had much help from 
the Congress and help even from Office of Personnel Management 
(OPM) on addressing health care professionals. The ability to 
do direct hire for civilians, which has helped us a lot in 
isolated areas. The ability, if you will, to bypass some of the 
merit-based hiring practices that are extraordinarily 
cumbersome.
    For the Congress, we have been given the authority to offer 
very attractive bonuses, and for individuals going through the 
Health Professions Scholarship Program, to offer them 
additional incentives as well. So we have received support in 
both.
    Ms. McGinn. Can I jump in on that from a DOD-wide 
perspective?
    We have been aggressively pursuing more mental health 
providers in our health care system. We actually have, since 
2007, I think 1,900 more in our military treatment facilities 
and about 10,000 more in our contracted TRICARE operation.
    We have expanded the number of confidential counseling 
sessions you can have with our Military One Source, which is 
also a call-in support line we have for our families. And we 
have provided for confidential mental health counseling under 
TRICARE.
    Today, I think we rolled out a major mental health campaign 
called Real Warriors, which is a marketing campaign designed to 
do away with the stigma of showing up for help if you have a 
mental health problem and to reinforce the fact that leaders 
should encourage their service member subordinates to seek help 
for that just as they would seek help for anything else.
    So we have been working very closely with the Department of 
Veterans Affairs and established a Center of Excellence on 
Psychological Health and Traumatic Brain Injury. And we have 
been moving very, very aggressively towards solving the mental 
health problem.
    Ms. Tsongas. Would any others like to comment?
    It seems as though we have made great strides. And I know 
that Congress wants to be a partner with you, but that we just 
can't seem to keep up with it, that even General Chiarelli 
said, ``I need more, and I don't know where I am going to get 
them.'' So I think it is an ongoing challenge that we all have 
an obligation to face.
    But thank you.
    Ms. McGinn. It is. It is a national problem, in terms of 
shortage of mental health providers.
    General Rochelle. If I may follow up, ma'am, one of the 
things we are learning is that our basis of authorization for 
mental health providers was designed, if you will, in a Cold 
War environment. And it is inadequate for what we are facing 
and what our soldiers are experiencing today.
    And I would especially mention the fact that, in addition 
to what Ms. McGinn said, I fully agree with, that there is a 
challenge nationally to grow the mental health care providers, 
health care providers in general, that we need. It is 
especially acute in our ability to find individuals capable of 
donning the uniform and providing those services to our 
soldiers in Afghanistan at Sharana and--you name the combat 
outpost.
    Mrs. Davis. Thank you, Ms. Tsongas.
    And it is really interesting because I think that, almost 
every discussion that we have lately, we turn towards mental 
health issues. I mean, we end up talking about them. We will be 
having a hearing solely on mental health issues, post-traumatic 
stress disorder (PTSD), traumatic brain injury (TBI), and the 
impacts on family, as well, because we want to highlight those 
issues and we know it is critical.
    I am delighted to hear about the program that is being 
unveiled. And we know that the issue of stigma is an important 
and a critical one.
    I wanted to turn quickly, Ms. McGinn, to an issue that is 
going to hit us in the face here pretty soon. And we are seeing 
the first concurrent receipt legislative proposal offered by 
the Administration. And it is a very welcomed shift, I think we 
all feel that way, in the concurrent receipt landscape, which 
will really set a precedent for future initiatives.
    The President's budget request does provide sufficient 
mandatory offsets to support the legislative proposal, but none 
of those offsets are within the Defense accounts and, 
therefore, not within the management reach of the House 
Committee on Armed Services.
    And I am wondering, Ms. McGinn, what the Department's 
position on the offsets is. And will the Department and the 
Office of Management and Budget (OMB) assist the committee in 
identifying some offsets that are most likely to be available 
for inclusion with the provisions in the national defense 
authorization bill?
    Ms. McGinn. Well, Madam Chairman, I wasn't part of the 
conversation around the offsets, so I will have to get back to 
you on that so I can get a good answer for you.
    Mrs. Davis. Okay. What it does is limit our ability to act 
in some other areas. And, while we welcome it, we really are 
interested in how you all are going to be handling it, as well. 
So that would be of help to us.
    I know that there are a number of family initiatives that 
you have been speaking about and are considering. I would like 
you to just let us know what initiatives that you are really 
most proud of that will result from a 2010 funding request. 
What are you hoping that is new, provides additional services 
to our families, that we might be able to follow and evaluate 
in the future?
    General Coleman. Ma'am, I would say for us, the money that 
this Congress has allowed us to work with as far as family 
readiness, it has allowed us to hire folks rather than a key 
volunteer or someone working with and for the families on an 
all-volunteer basis. We have been able, thanks to you all, to 
hire folks to do that.
    So I don't know that there is anything more important than 
the funding that Congress has given us to take care of our 
families--nothing more. And as long as we maintain that, 
because a Marine or any service man or woman that deploys and 
knows that his or her family is taken care of is a much better 
service man or woman.
    Admiral Ferguson. I would offer, too, is the important 
support of the Congress on recruiting and retaining medical 
personnel--dental, nurses, Medical Service Corps, mental health 
practitioners. Those bonuses are very important to us, and to 
protect those is important.
    In terms of the programs for the Navy, we have rolled out 
what we call the Operational Stress Control. And we have 
introduced this training to up to 16,000 service members, 
everyone going into theater, coming out, and then also 
expanding it to the whole force. And the budget request 
supports us expanding that, essentially, education awareness of 
service members and how they react to stress and be able to 
remove the stigma of it. I think that is an important program 
that you will see from us in the future.
    Ms. McGinn. I think that a lot of what is in the budget is 
an expansion of the important things that we are already doing; 
child care being principal among them, to try to meet the unmet 
demand for child care.
    There are a couple of things--obviously, there was a litany 
of them in my testimony. The spouse career accounts, where we 
provide funding for spouses to get certifications for careers 
and we can start to build a career base for our spouses. I 
think spouse employment is incredibly important.
    And I also think that the Yellow Ribbon Program, where we 
reach out to the Reserve component upon their deployment and 
their coming home, working with their families and easing the 
stress of the deployments for the Reserves is another very 
important one.
    General Rochelle. I would echo Ms. McGinn's opening 
comment, which is that much of what you see in the fiscal year 
2010 budget is a continuation of the wonderful programs that 
the Congress has authorized us to have and to offer primarily 
to our families. I would echo the words of General Creighton 
Abrams, a former Chief of Staff of the Army, who said that the 
Army isn't about people, it is people. And that is very, very 
true. It is perhaps even more true today than it was then, if 
that is possible.
    I would highlight one particular area that is fully funded 
in the budget that is vital, with those two previous comments 
in mind, and that is, one, the family readiness support 
assistance, which the Secretary of the Army and the Chief of 
Staff of the Army two years ago carved out of existing 
authorizations and existing funds to resource down to the 
brigade and battalion level in order to address what they 
clearly recognized as the fragile fabric of that family 
readiness. And repeated deployments: Once again, dwell being at 
one year for every 1.3 years back at home. And for our Army 
National Guard and Army Reserve, the same.
    General Newton. Madam Chairwoman, as I mentioned earlier, 
2009 is the ``Year of the Air Force Family.'' And as we move 
forward into the fiscal year 2010 through 2015 budget years, we 
are also continuing to make a deep investment in our families. 
There is a balance in terms of our men and women in uniform and 
our civilians, but also our family members as well.
    I believe Dr. Fleming had talked about the operations tempo 
and so forth in a previous discussion. The stress on the 
families is significant, and we are anticipating it to remain 
significant. We have taken great steps, through the support of 
this committee and support of resources, to narrow down our 
open child care spaces from over 6,400 nearly down to zero by 
fiscal year 2011 and so forth, as we continue to make sure 
that, again, we take care of what are mission-critical efforts 
for our Air Force family, as well.
    And I will just close on this point, that we hosted a Year 
of the Family symposium that lasted two days where we looked at 
a number of initiatives that we are going to follow through, 
not necessarily just for fiscal year 2009 but for the out-years 
as well, from family support and Guard and Reserve support, 
school support; the challenges that children have, on average 
moving five, six, seven times.
    I was an Air Force kid; I moved 13 times in 12 years of 
school and so forth. I brought my wife Jodi with me today, and 
I think we are on our 18th or 19th move. But can you imagine 
the impact that has on a lot of our service men and women? That 
will continue to remain.
    Thank you.
    Mrs. Davis. Thank you very much.
    And thank you, Jodi, for being here. We appreciate it. We 
know that you sacrifice a great deal and are a great support. 
And thank you very much for being here and for being part of 
this.
    Mr. Wilson.
    Mr. Wilson. Admiral Ferguson, a few minutes ago you 
mentioned Navy JROTC. And I want to give you a first-line 
report.
    Saturday, I went to an awards dinner at Chapin High School, 
Chapin, South Carolina. There were nearly 400 people there. And 
Colonel Buddy Slack, Chief Charlie Cook, the personnel you have 
there, it was just really uplifting to me. My wife and I were 
just so impressed by the young people serving the families. We 
have known so many of the families over the years, and to see 
these young people, what an extraordinary opportunity. And they 
will have a great future.
    Another issue you mentioned was individual augmentees. I 
would like to know what the status in the Navy as to individual 
augmentees and what the Navy is doing for families who have had 
individual augmentee deployments.
    Admiral Ferguson. That is a great question.
    Presently, there are about 11,000 on the ground in Central 
Command Navy personnel. And, on any given day, there may be 
more personnel on the ground than there are at sea in the 
waters off Iraq.
    And so, last October, the Chief of Naval Operations 
designated a four-star, Admiral Greenert down at Fleet Forces 
Command in Norfolk, to be the lead executive agent for 
individual augmentee support and family support.
    We have formed a federated council: the Chief of the Navy 
Reserves; the Bureau of Medicine and Surgery, Admiral Robinson; 
Admiral Greenert's deputy; myself. And we formed together and 
look at all the ways to support families and do that. And so, 
having a four-star in charge of that, with us as a council to 
help him, has provided that to the families, where we do 
following, we assign mentors for them, we track them and 
provide assistance where we can.
    Mr. Wilson. Well, it is really, again, inspiring to me to 
know the talented people serving in the Navy who have 
volunteered to serve around the world as sand sailors, many of 
them trained at Fort Jackson, South Carolina.
    Admiral Ferguson. That is correct.
    Mr. Wilson. Thank you very much.
    Mrs. Davis. Thank you.
    Before we close--and I certainly appreciate everybody 
having been here. I know that members have other committees to 
go to today. But one of the areas that we speak about often are 
the critical-need areas that we have in the services. And I 
wondered if you believe that we should open up some ideas about 
how we might have more commissioned officers who don't 
necessarily always come from the ranks of citizens, that 
perhaps have green cards, have talents, have abilities that we 
might look to for help in the services. We have some 
opportunities with the Reserves and also with the enlisted, but 
not with commissioned officers.
    Any thoughts about that and whether or not that is an area 
that we ought to explore more?
    General Rochelle. I would like very much to offer a 
thought, Madam Chairwoman.
    First of all, a little background to get to your question. 
Several years ago, when I was the Commanding General (CG) of 
Recruiting Command, I was called to the Pentagon and asked if 
we could launch a program to recruit Middle Eastern-born 
individuals, primarily in the Dearborn, Michigan, area, which 
was where it began. That program is called--and it still 
exists--the O-9 Lima Interpreter Program. It broke the mold a 
little bit because these, indeed, are citizens, in many cases, 
but they were unable to pass the standard Armed Services 
Vocational Aptitude Battery.
    A few years later, last year, to be precise, fiscal 2008, 
if my memory serves correctly, we launched the Military 
Accessions Vital to National Interest Program--in fact, it may 
have only been this year, this fiscal year--which was targeted 
toward visa holders. And what we saw is that we were able to 
attract a much better educated individual. Nothing wrong with 
the O-9 Lima interpreters, but we opened up a whole new vista. 
And that program has proved very, very fruitful for the Army. I 
have not tracked so closely the other services' accessions in 
it.
    To your specific question, I believe, because of the 
challenges we face, which we have talked about today, in terms 
of health care professionals, scientists, and individuals with 
very highly specialized skills, that it is time to ask the 
difficult question: Should we, indeed, change Title 10 United 
States Code to allow us to commission individuals in a 
military-accessions and skills-vital-to-national-interest 
style? I believe it is.
    Mrs. Davis. Anybody else want to comment on that?
    Well, it is a discussion, perhaps, that we need to have in 
the future. And I appreciate the fact that sometimes, when one 
is retiring, you can bring up some issues that might have been 
tougher earlier on.
    General Rochelle. No, Ms. McGinn just said my opinion 
hasn't changed.
    Mrs. Davis. It hasn't changed; it has been there. Right. 
Well, I appreciate that.
    And we always really encourage people to stick out on 
issues which may not always be easy but have, certainly, some 
merit as we move forward. Because people are critical, and 
being able to reach out and really engage Americans, people who 
are in our country, productive and contributing, is always an 
important issue for us.
    And so I want to thank you very much again.
    General Coleman and General Rochelle, thank you for your 
dedicated service. We will miss you at these hearings, but we 
wish you well.
    And thank you to all of you being here.
    The committee is adjourned.
    [Whereupon, at 3:43 p.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                              May 21, 2009

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 21, 2009

=======================================================================
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                              May 21, 2009

=======================================================================
      
            RESPONSES TO QUESTIONS SUBMITTED BY MS. BORDALLO

    Ms. McGinn. The Department supports the President's Budget.
    The end strengths for the Reserve components are as follows:
  
Army National Guard                                              358,200
Army Reserve                                                     205,000
Navy Reserve                                                      65,500
Marine Corps Res.                                                 39,600
Air Force Reserves                                                69,500
Air National Guard                                               106,700
Coast Guard Reserves                                              10,000
                                                      ------------------
Total                                                            854,500

    [See page 20.]

    Ms. McGinn. The percentages of Service members who enter active 
duty that can be expected to remain until the 20-years-of-service point 
and retirement is as follows:
                Service                     Officer          EnlistedArmy                                               36%              13%
Navy                                               35%              13%
USMC                                               35%               8%
USAF                                               40%              22%

    The continuation rates are consistent with historical rates and 
what managed attrition and career field manpower pyramids demand of 
retention to maintain a balanced force. Desired retention is a 
component of end strength and grade requirements. Strength is generally 
derived from three components that must be continually balanced--
recruiting capable people, controlling initial term attrition, and 
retaining the skill and grade mixes required to fill the critical 
military structures. The continuation rates across the Military 
Departments are further complicated by the needs of specific military 
occupational specialties within each of the Services which have varying 
manpower grade structures. [See page 21.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY DR. FLEMING
    Ms. McGinn. In answering this question, the Department's assumption 
is that the question refers to the high-level valor awards that are 
common to all Military Departments, which includes: The Medal of Honor, 
Service Crosses (Distinguished Service Cross--Army; Navy Cross--Navy 
and Marine Corps; Air Force Cross--Air Force), and Silver Star.
    There have been no changes to the Department's valor award 
criteria. The Department's policies and procedures for awarding 
valorous decorations and awards are outlined in Department of Defense 
Manual of Military Decorations and Awards, DOD 1348.33-M. The manual 
promulgates, without elaboration, valor award criteria as stipulated by 
statute and Executive Orders. Application and adherence to the criteria 
in recognizing the valorous actions and performances of Service members 
fall primarily under the purview of the Secretaries of the Military 
Departments. The Military Department Secretaries are directed by 
Department of Defense policy to establish procedures in their 
respective Departments to ensure compliance with the policies and 
procedures outlined in the Department's Manual of Military Decorations 
and Awards.
    Additionally, there have been no changes to the valor award 
criteria contained in each respective Military Department's military 
decorations and awards manuals, regulations, or instructions. [See page 
23.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              May 21, 2009

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. LOEBSACK

    Mr. Loebsack. What is each of the Services doing to improve access 
to family support services, including child care, for both the active 
duty and the Reserve Components? What challenges do you face in 
providing family support to the Reserve Components? What plans are in 
place to overcome these challenges? Do you believe that sufficient 
resources are allocated to make families of the Reserve Components 
aware of the services available to them?
    General Rochelle. In 2007, the Army unveiled the Army Family 
Covenant, a commitment to provide Soldiers and their Families a quality 
of life commensurate with their level of service and sacrifice to the 
Nation. In the two years since the Covenant was unveiled, the Army has 
developed aggressive improvement strategies resulting in significant 
improvements in Soldier and Family quality of life, including Family 
programs and services; increased accessibility to health care; improved 
housing; excellence in schools, child, and youth services; and expanded 
education and employment opportunities for Family members.
    Since the Covenant's inception the Army has implemented the Army 
National Guard's Yellow Ribbon Reintegration Program to minimize 
stresses of military service, particularly the stress of deployment and 
Family separation. We have added more than 1,000 Family Readiness 
Support Assistant positions to enhance administrative and logistical 
support to Family Readiness Groups. We also established Army OneSource 
to provide Soldiers and their Families access to standardized services, 
programs, and support. We supported 249 Army National Guard Family 
Assistance Centers, which provide Soldiers and Families support 
services, regardless of geographic location, and expanded community-
based outreach to geographically dispersed children of deployed Active, 
Guard, and Reserve Soldiers through Operation: Military Kids.
    Reaching geographically dispersed Soldiers and Families with 
information and services, especially those in the Reserve Component, is 
one of our greatest challenges. In 2008, the National Guard Bureau 
created the Soldier Family Services and Support Division to provide 
Family program resources, guidance, and training to all states and 
territories. The Reserve Component also communicate consistently with 
State Offices or subordinate commands to improve processes and update 
programs based on changing needs. Through coordination with the Reserve 
Component, we will continue to improve programs and services and ensure 
all Soldiers and Families are aware of the programs and services 
available to them.
    Through the Army Family Covenant, Army leadership has committed to 
enhancing the quality of support to Soldiers and their Families across 
the entire Army and has doubled its investment in base funding from 
fiscal year 2007 to 2010. So, yes, we believe the Army has sufficient 
resources to inform both Active and Reserve Component Families of the 
services available to them.
    Admiral Ferguson. Through a Navy-wide network, which includes Navy 
Installations Command, Fleet and Family Support Centers, Navy Reserve 
Forces Family Support Coordinator, five regional Family Support 
Administrators and their Navy Operational Support Center (NOSC) staffs, 
Navy continues to make significant strides in improving resources and 
support for families of active and reserve Sailors, placing particular 
emphasis on those who do not reside in Fleet Concentration Areas where 
services are more readily available. Initiatives include:

    <bullet>  Reducing waiting time for child care and expanding access 
by adding approximately 7,000 new child care spaces through 
construction of 26 child development centers (including 24/7 
facilities), converting existing pre-school age spaces into infant 
spaces to meet the greatest demand, establishing commercial contracts 
in communities across the United States, and expanding military 
certified home care.

    <bullet>  Reaching remotely located families through information 
technology, providing virtual family discussion groups and workshops, 
publication of a monthly E-newsletter and distribution of Family, 
Sailor and Command Individual Augmentee (IA) Handbooks.

    <bullet>  Developing and delivering an electronic deployment 
toolkit/sea bag to better equip school administrators and staff in 
working with children of deployed Sailors.

    <bullet>  Providing a comprehensive Personal Financial Management 
(PFM) program that emphasizes a proactive, career life-cycle approach 
to family and individual savings and investment, delivered through a 
network of accredited financial counselors and educators at Fleet and 
Family Support Centers and Command Financial Specialists, with 
collaboration from partner organizations.

    <bullet>  Launching a family awareness effort of Operational Stress 
Control (OSC) initiatives incorporated into existing family support 
programs and services that center on promoting psychological health, 
reducing stigma associated with seeking psychological services and 
improving resilience in Sailors and their families.

    <bullet>  Implementing a ``Give Parents a Break'' program and 
embedding Child and Youth Behavior Consultants in our programs to 
provide a resource to observe and train our professionals in 
intervening to assist families facing challenges during deployments.

    <bullet>  Launching a new Navy-wide School Liaison Officer program 
designed to assist families and local school districts with dependent 
education issues arising from frequent moves and deployments.

    Challenges in supporting the Reserve component are centered on our 
ability to reach remotely located families impacted by deployment 
demands, and in restructuring support services to include extended 
family members of single Sailors. While we have made significant 
progress in providing resources and support to geographically dispersed 
families, repeated deployments continue to put strain on the system. 
Work remains to integrate available resources into an 
institutionalized, sustainable delivery system and to provide effective 
outreach to families and service providers informing them about 
resources available to them and how they may access them.
    The President's budget includes the resources necessary to continue 
our efforts to improve support services for active and reserve Sailors 
and their families, including making them more readily accessible.
    General Coleman. Over the past year, the Marine Corps initiated a 
multi-year strategy to transition family support programs to a wartime 
footing, per the Commandant's directive. To measure the effectiveness 
of our services and family support programs, we conducted a series of 
program assessments and received feedback from our Marines, their 
families, and our commanders. In response, we implemented key reforms 
at every level of command and aboard each installation. Central to our 
transformation efforts, we expanded the depth and breadth of our family 
readiness training and support programs and established the Unit, 
Personal and Family Readiness Program to educate our Marines and their 
families and to empower them to achieve and maintain a high state of 
personal readiness and resiliency. We continue to aggressively 
institute new Family Readiness Programs, revitalize services, and 
proactively reach out to our Reservists and their families to ensure 
our programs and services meet the changing needs and expectations of 
our Marines and their families.
    As part of transformation efforts, we are placing full-time Family 
Readiness Officers (FROs) at the battalion/squadron level and above, 
staffed by either civilians or Active Duty Marines, who serve as the 
focal point for our families and support the Commander's family 
readiness mission. Every Marine Corps Reserve unit throughout the 
country has a Family Readiness program that serves as the link between 
the command and family members--providing official communication, 
information, and referrals. As the ``communication hub'', the FRO 
provides families with information on the military lifestyle and 
benefits, provides answers for individual questions and areas of 
concerns, and enhances the sense of community and camaraderie within 
the unit. Outreach is conducted through various forms of communication 
to ensure that every family member is afforded access to the 
information. This includes live sessions conducted on or near the 
Reserve Training Facility, telephonic contact, email, USMC websites, 
links to on-line support services, newsletters, and marketing of 
national military resources to include the Joint Family Services 
Assistance Program (JFSAP).
    Understanding that communication is a key quality of life issue 
important to our Marines and their families, we conducted research and 
analysis to identify the communication needs of Marines and their 
families; the effectiveness of our current communication methods, and 
to develop a formal organizational communication system that would 
facilitate three-way communication: commands to Marines and families; 
Marines and families to commands; and Marines and families to each 
other. As a result, we are implementing a Mass Communication Tool which 
enables simultaneous broadcast of official communication via email, 
text messaging, or phone, and other technology enhancements to expand 
communications between the unit and Marines and their families 
regarding official communication or important unit training events. All 
of these tools are available to the Reserve Component as well as the 
Active Component.
    The Marine Corps' partnership with the Boys and Girls Clubs of 
America (BGCA) and the National Association for Child Care Resources 
and Referral Agencies (NACCRRA) continues to provide a great resource 
for our service members and their families in selecting child care, 
before, during, and after a deployment in support of overseas 
contingency operations. The Boys and Girls Clubs of America provide 
outstanding programs for our Reserve Marines' children between the ages 
of six and 18 after school and on the weekends. Under our agreement 
with BGCA, Reserve families can participate in more than 40 programs at 
no cost. With NACCRRA, we help families of our Reservists locate 
affordable child care that is comparable to high-quality, on-base, 
military-operated programs. The NACCRRA provides child care subsidies 
at quality child care providers for our Reservists who are deployed in 
support of overseas contingency operations and for those Active Duty 
Marines who are stationed in regions that are geographically separated 
from military installations. We also partnered with the Early Head 
Start National Resource Center Zero to Three to expand services for 
family members of our Reservists who reside in isolated and 
geographically-separated areas.
    We restructured our Exceptional Family Member Program (EFMP) and 
established a continuum of care for our Marine families (on active duty 
30 or more days) enrolled in the program. This program, which is fully 
staffed at both the installation and headquarters levels, is helping 
nearly 6500 families gain access to medical, educational, and financial 
services that may be limited or restricted at certain duty stations. A 
Marine Corps-funded Respite Care Program provides up to 40 hours of 
free respite care per month to all enrolled families, and can be used 
in conjunction with the TRICARE Extended Care Health Option (ECHO) 
benefit. We are working with the Bureau of Medicine and Surgery and 
TRICARE to resolve health care access and availability issues at 
several bases. In addition, legal counsel is now on staff to advise our 
exceptional family members on state and Federal entitlements and 
processes.
    We fully recognize the strategic role our families have in mission 
readiness, particularly mobilization preparedness. We prepare our 
families for day-to-day military life and the deployment cycle (Pre-
Deployment, Deployment, Post-Deployment, and Follow-On) by providing 
educational opportunities at unit Family Days, Pre-Deployment Briefs, 
Return and Reunion Briefs, and Post-Deployment Briefs. Educational 
opportunities at these events include access to subject matter experts 
in areas such as Military OneSource, VA, TRICARE, legal, financial 
counseling, Chaplain, Employer Support of the Guard and Reserve (ESGR), 
Combat Operational Stress Control (COSC), and other resources that unit 
Commanding Officers determines would be beneficial to the unique 
circumstances of the Marines and families. This is accomplished through 
unit level Family Readiness programs that are the responsibility of the 
Commanding Officer, managed by the full-time, non-deploying FRO and 
supported by trained volunteers and Force level programs such as 
Lifestyle Insights, Networking, Knowledge, and Skills (L.I.N.K.S.). The 
L.I.N.K.S. program is a training and mentoring program designed by 
Marine spouses to help spouses, children and parents thrive in the 
military lifestyle and adapt to challenges--including those brought 
about by deployments.
    To better prepare our Marines and their families for activation, 
Marine Forces Reserve is fully engaged with OSD to implement the Yellow 
Ribbon Reintegration Program (YRRP), much of which we have had in place 
for quite some time. We continue to implement an interactive approach 
that provides numerous resources and services throughout the deployment 
cycle. Available resources include, but are not limited to, family-
related publications, online volunteer training opportunities, and a 
family readiness/mobilization support toll free number. Family 
readiness educational materials have been updated to reflect the 
current deployment environment. Specifically, deployment guide 
templates that are easily adapted to be unit-specific were distributed 
to unit commanders and family readiness personnel, as well as Marine 
Corps families, and are currently available on our Web site. Services 
such as pastoral care, Military OneSource, and various mental health 
services are readily available to our Reserve Marines' families. Also, 
through the DoD contract with the Armed Services YMCA, the families of 
our deployed Reserve Marines are enjoying complimentary fitness 
memberships at participating YMCA's throughout the United States and 
Puerto Rico. Our Active Duty Marines and their families located at 
Independent Duty Stations have the ability to access these services as 
well.
    Managed Health Network (MHN) is an OSD-contracted support resource 
that provides surge augmentation counselors for our base counseling 
centers and primary support at sites around the country to address 
catastrophic requirements. This unique program is designed to bring 
counselors on-site at Reserve Training Centers to support all phases of 
the deployment cycle. Marine Forces Reserve has incorporated this 
resource into post-demobilization drill periods, Family Days, Pre-
Deployment Briefs, and Return & Reunion Briefs. Follow-up services are 
scheduled after Marines return from combat at various intervals to 
facilitate on-site individual and group counseling. Additionally, we 
are utilizing these counselors to conduct post-demobilization 
telephonic contact with Individual Ready Reserve (IRR) Marines in order 
to assess their needs and connect them to services.
    The Peacetime/Wartime Support Team (PWST) and the support structure 
within the Inspector-Instructor staffs at our Reserve sites provides 
families of activated and deployed Marines with assistance in 
developing proactive, prevention-oriented steps such as family care 
plans, powers of attorney, family financial planning, and enrollment in 
the Dependent Eligibility and Enrollment Reporting System (DEERS). 
During their homecoming, our Marines who have deployed consistently 
cite the positive importance of family support programs.
    Geographic dispersion and proximity to active duty installation 
services has been and will continue to be the greatest challenge to 
providing support to Reservists and their families. To overcome these 
challenges and strengthen family support programs, we will continue to 
enhance, market, and sustain outreach capabilities. The current OSD-
level oversight, sponsorship, and funding of family support programs 
properly corresponds to current requirements. We are particularly 
supportive of Military OneSource, which provides our Reservists and 
their families with an around-the-clock information and referral 
service via toll-free telephone and Internet access on a variety of 
subjects such as parenting, childcare, education, finances, legal 
issues, elder care, health, wellness, deployment, crisis support, and 
relocation.
    General Newton. Guard and Reserve members and their families are 
actively included in programs offered to Active Duty Airmen and their 
families. To meet the challenges of working with geographically-
dispersed Airmen and their families, we recently conducted a Caring for 
People Forum to identify any gaps in service, in which the Guard and 
Reserve participated. Additionally, we meet with active, Guard and 
Reserve family coordinators to determine areas we can develop and 
enhance partnerships to overcome challenges that exist.
    In a constrained environment, we provide support to meet the 
greatest needs of our Airmen and families. As such, we value our 
national partnerships, state relationships, and interagency 
partnerships with the Department of Defense and our sister services to 
be able to expand our resources. We are further challenged with 
identifying the needs for child care as the Guard and Reserve families 
are geographically dispersed throughout the country in a wide variety 
of settings where local services may not be available.

                                  <all>

</pre></body></html>
